U.S. Department of the Interior
Office of Inspector General




            AUDIT REPORT


     GENERAL CONTROLS OVER THE
  AUTOMATED INFORMATION SYSTEM,
   ROYALTY MANAGEMENT PROGRAM,
    MINERALS MANAGEMENT SERVICE

              REPORT NO. 98-I-336
                 s MARCH 1998
              United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                     Washington. D.C. 20240




MEMORANDUM

TO:                        The Secretary

FROM:                      Robert J. Williams -rg? &&y          cc/Lc-
                           Acting Inspector General    ’

SUBJECT SUMMARY:           Final Audit Report for Your Information - “General Controls
                           Over the Automated Information System, Royalty
                           Management Program, Minerals Management Service” (No.
                           98-I-336)

Attached for your information is a copy of the subject final audit report. The objective of our
audit was to evaluate the adequacy of the general controls over the Minerals Management
Service Royalty Management Program’s automated information system in the areas of
security program development, physical and logical access, so&are development and
change management, separation of duties, system software, and service continuity.

We found that the Royalty Management Program had established general controls over its
automated information system; however, except for the controls over physical access to the
automated information system, we concluded that the general controls were not adequate in
the six major areas reviewed. Specifically, the Program did not identify and address all risks
affecting proprietary and financial data in the automated information system, have adequate
security-related personnel policies and procedures, and have security awareness statements
on tile for all employees who used the automated information system; have adequate logical
access controls in the areas of resource classification, default settings, commercial off-the-
shelf software access controls, access levels granted to users, and numbers of allowed log-in
attempts; have controls to ensure that client/server application software changes were
authorized, approved, and tested before being moved into production; separate the duties of
the client/server application programmers from the duties of the users and separate the duties
of client/server security administrators from reviewers; use mainframe security software that
was supported by the vendor and use available mainframe computer system audit tools to
ensure integrity over system processing and data; and include local area networks and
personal computers which maintain proprietary and financial data in the Program’s disaster
recovery plans. We made 24 recommendations to improve the general controls over the
Program’s automated information system.

Based on the response to the draft report from the Director, Minerals Management Service,
we deleted one recommendation and revised one recommendation. Also, baaed on the
response, we considered 1 recommendation    resolved  and implemented             and 12
recommendations   unresolved, and we requested additional information             for 10
recommendations.

If you have any questions concerning this matter, please contact me at (202) 208-5745.


Attachment
I                                                                                      A-l-N-MMS-00 l-97


                    United States Department                           of the Interior
                                    OFFICE OF INSPECTOR GENERAL
                                              Washington, D.C. 20240



                                                                       MAR23 I998


                                          AUDIT REPORT


    Memorandum

    To:        Director, Minerals Management Service

    From:      Robert J. Williams                        . (!/d&d
               Acting Inspector

    Subject: Audit Report on General Controls Over the Automated Information System,
             Royalty Management Program, Minerals Management Service (No. 98-I-336)

                                         INTRODUCTION

    This report presents the results of our audit of the general controls over the automated
    information system at the Minerals Management Service’s Royalty Management Program.
    We performed this audit to support our audit of the Service’s financial statements, which is
    required by the Chief Financial Officers Act. The objective of this audit was to evaluate the
    adequacy of the general controls over the Program’s automated information system in the
    areas of security program development, physical and logical access, software development
    and change management, separation of duties, system software, and service continuity.’

    BACKGROUND

    The Minerals Management Service’s Royalty Management Program is responsible for
    collecting and disbursing revenues of about $4 billion annually that are generated from
    leasing Federal and Indian lands and for collecting royalties for minerals extracted from
    leased lands. To aid in accomplishing its -mission objectives and meeting its financial
    reporting requirements, the Program uses an automated information system that includes a
    mainframe computer, a minicomputer, and personal computers and servers which support
    local area networks for each Program division, a wide area network, and an enterprisewide




    ‘Logical access refers to controls that provide a technicalmeans of controlling what information users can
    utilize, the programsthey can run, and the modificationsthey can make. (An Introductionto Co-
    Securitv: The NIST Handbook, Special Publication 800- 12, National Institute of Standards and Technology.)
network.’ For collecting rents and royalties, the Program primarily uses the mainframe
computer. For disbursing rents and royalties, verifying collections, and reporting financial
information, the Program uses all of the components of its automated information system.

The Program’s mainframe computer, minicomputer, and some of the personal computers and
servers are located in three buildings at the Denver Federal Center, in Denver, Colorado. The
Program also has personal computers and servers located in leased buildings in Golden,
Colorado, and at Program division offices in Dallas and Houston, Texas.

Since 1992, Program management has been planning, developing, and moving to a
“client/server” processing enviromnent.3        In a client/server environment, data are more
difficult to protect. Specifically, the data are stored and processed in multiple locations, and
the data must travel through telecommunication systems between the clients and the servers
where the data are inherently susceptible to being released to unauthorized outside parties,
lost, or damaged. Additionally, the, Program’s data are “proprietary”; therefore, if access to
the data is denied or if the data are inappropriately released, lost, or damaged, the Program,
suppliers of the data, or others having an interest in the data could be adversely impacted.

The Program’s automated information system was operated and maintained by the contractor
American Management Systems Operations Corporation. The contract with the Corporation
requires the Corporation to: (1) maintain system software; (2) maintain and develop
application software; and (3) maintain other software, such as teleprocessing and general
utilities.

Overall system security policies for the Program are established by the Installation
Automated Information System Security Officer, within the Program’s Systems Management
Division. System security administration for the mainframe computer, the minicomputer,
the wide area network, and the enterprisewide network is the responsibility of the
Corporation.     Security administration for the Program’s local area networks is the
responsibility of each of the Program’s seven divisions, which consist of the Accounting and
Reports Division, the Royalty Valuation Division, the Systems Management Division, the
State and Indian Compliance Division, and the Compliance Divisions at Dallas and Houston
and Lakewood, Colorado.


*Serversare computersthat provide services to client computers on a network. Local area networks are
communication networks located in a small geographical area which connect many computerized input/output
devices, generally server computers, client computers, and peripheral hardware such as printers, throngh low-
cost communication mediums. These networks typically do not use common carrier circuits, such as U.S. West,
and their circuits do not cross public thoroughfares or property owned by others. Wide area networks span
large geographical areas and typically use circuits provided by common carriers. Enterprisewide networks are
networks that result when all the networks in a single organization are connected together. (Jerry Fitzgerald
and Alan Dennis, Business Data Communications and Networking, 5th edition, John Wiley & Sons, Inc., 1996,
pps. 249,522,529,542,     and 549.)

3A “client/server” processing environment is a computerized architecture in which one or more “computers
called servers manage shared resources and provide access to those shared resources as a service to their
clients,” which are personal computers. (David Vaskevitch, Client /Server Strategies. a Survival Guide for
Cornorate ReenPineering, IDG Books Worldwide, Inc., San Mateo, California, 1993, page 96.)

                                                      2
SCOPE OF AUDIT

To accomplish our objective, we reviewed the general controls that were in place during
January through June 1997. Specifically, we reviewed the controls in six major areas:
security program development; logical and physical access; software deirelopment and
change management; separation of duties; system software; and service continuity. We
interviewed Program and contractor personnel, reviewed systems documentation, observed
and became familiar with computer center operations and network components, analyzed
system security, and evaluated service continuity procedures and testing. In addition, we
reviewed procedures to maintain system and application software for the mainframe
computer, the local area networks, the wide area network, and the enterprisewide network.
Because our review wan limited to evaluating the adequacy of general controls over the
automated information system, we did not evaluate the effectiveness of manual control
procedures that may have operated as compensating controls for the automated information
system general controls. While our objective was to review the general controls of the
automated information system, the primary emphasis was on the servers that supported data
processed and maintained on the local area, wide area, and enterprisewide networks.

Our audit, which was conducted during December 1996 through August 1997 at the
Program’s facilities in Denver and Golden, was made in accordance with the “Government
Auditing Standards,” issued by the Comptroller General of the United States. Accordingly,
we included such tests of records and other auditing procedures that were considered
necessary under the circumstances.

As part of our audit, we evaluated the internal controls that could adversely affect the
Program’s automated information system. The control weaknesses that we found are
summarized in the Results of Audit section and discussed in detail in Appendix 1 to this
report. If implemented, our recommendations should improve the internal controls in the
areas reviewed, Because of inherent limitations in any system of internal controls, losses,
noncompliance, or misstatements may occur and not be detected. We also caution that
projecting our evaluations to future periods is subject to the risk that controls or the degree
of compliance with the controls may diminish.

PRIOR AUDIT COVERAGE

During the past 5 years, the General Accounting Of&e has not issued any reports related
to the objective and scope of this audit; However, in July 1997, the OffIce of Inspector
General issued the report “Royalty Management Program’s Automated Information Systems,
Minerals Management Service” (No. 97-I- 1042), which identified weaknesses in mainfkme
application software development and change management. During our current audit, we
noted that Program management had agreed with the seven recommendations made in our
prior audit report and that two of the seven recommendations had been implemented. One
of the implemented recommendations and three of the recommendations that were resolved
but not implemented affected the change request process (change management), which is
discussed in the scope of this audit. We further noted that implementation of the three


                                              3
    recommendations was delayed because of the priority of implementing the changes mandated
    by the Federal Oil and Gas Royalty Simplification and Fairness Act of 1996.

                                      RESULTS OF AUDIT
    The Royalty Management Program had established general controls over its automated
    information system; however, except for the controls over physical access to the automated
    information system, we concluded that the general controls were not adequate in the six
    major areas reviewed. Office of Management and Budget Circular A- 130, “Management of
    Federal Information Resources,” and National Institute of Standards and Technology
    publications require Federal agencies to establish and implement computer security and
    management and internal controls to improve the protection of sensitive information in the
    computer systems of executive branch agencies.4 Additionally, the Congress enacted laws,
    such as the Privacy Act of 1974 and the Computer Security Act of 1987, to improve the
    security and privacy of sensitive information in computer systems by requiring executive
    branch agencies to ensure that the level of computer security and controls over the sensitive
    information is adequate. Further, the Department of the Interior and the Program have issued
    policies and procedures to implement general controls to protect sensitive data in automated
    information systems. The controls were not adequate because Program management had not
    established necessary policies and procedures, had not assigned responsibilities for ensuring
    that policies and procedures were developed and followed, and had not held officials
    accountable for noncompliance with the established controls. The lack of adequate controls
    increased the risk of (1) unauthorized access and modifications to and disclosure of Program
    data, (2) theft or destruction of Program software and sensitive information, and (3) loss of
    critical Program systems and functions in the event of a disaster or system failure.

    Overall, we identified 13 weaknesses and made 23 recommendations for improving the
    general controls over the Program’s automated information system. A summary of the
    weaknesses noted in the six major areas is provided in the following paragraphs, and specific
    details of the weaknesses and our respective recommendations to correct these weaknesses
    are in Appendix 1.

    Security Program Development

    We found weaknesses in the automated information system security program. Specifically,
    Program management did not identify and address all risks affecting proprietary and financial
.
    data in the automated information system, did not have adequate sCc*urity-relatedpersonnel
    policies and procedures, and did not have security awareness statements on file for all
    employees who used the automated information system. As a result, there was an increased
    risk that sensitive data may be impaired or compromised by individuals and that data may
    be inadvertently disclosed or destroyed or erroneously modified. We made seven
    recommendations to address these weaknesses.

    4The Computer Security Act defines “sensitive” data as “any information the loss, misuse, or unauthorized
    access to or modification of which could adversely affect the national interest or the conduct of Federal
    programs, or the privacy to which individuals are entitled under the Privacy Act.”

                                                        4
Access Controls

We found weaknesses in logical access controls over the Program’s automated information
system. These weaknesses were in the areas of resource classification, default settings,
commercial off-the-shelf software access controls, access levels granted to users, and
numbers of allowed log-in attempts. As a result, there was an increased risk that sensitive
data maintained on the automated information system were vulnerable to unauthorized
access, manipulation, and disclosure. We made eight recommendations to address these
weaknesses.

Software Development          and Change Management

We found that the controls over changes to client/semer application software were not
adequate.     Specifically, Program management did not have controls to ensure that
client/server application software changes were authorized, approved, and tested before being
moved into production.       As a result, there was an increased risk that the most critical
client/server application software changes were not made and that client/server applications
would not perform as intended. We made one recommendation to address this weakness.

Separation     of Duties

We found that Program management did not separate the duties of the client/server
application programmers from the duties of the users and did not separate the duties of
client/server security administrators from reviewers. As a result, there was an increased risk
that accidental or intentional actions by programmers could threaten the integrity of the
Program’s data and disrupt system processing and that inappropriate actions by security
administrators would not be detected or detected timely. We made two recommendations
to address these weaknesses.

System Software Controls

We found that the controls over system software were not adequate in detecting and
determining inappropriate use. Specifically, the security software in use for the mainframe
computer was no longer supported by the vendor, and available mainframe computer system
audit tools to ensure integrity over system processing and data were not used. As a result,
there was an increased risk that programs and data files would not be protected from
unauthorized access and that inappropriate mainframe computer system initialization and
processing would not be recorded and identified. Additionally, without periodic reviews of
the system audit trails, there was an increased risk that processing problems or unauthorized
activities may not be detected or detected timely and that the responsible individual or
individuals may not be held accountable for the inappropriate action. We made four
recommendations to address these weaknesses.




                                              5
Service Continuity

We found that local area networks and personal computers used by the Program’s divisions
which maintain proprietary and financial data were not included in the Program’s disaster
recovery plans. As a result, there was an increased risk that critical systems may not be
recovered in the event of a disaster or system failure. We made one recommendation to
address this weakness.

.Minerals Management          Service Response and Office of Inspector General
Reply

In the January 2 1, 1998, response (Appendix 2) from the Director, Minerals Management
Service, to our draft report, the Service stated that of the report’s 24 recommendations, it
“agree[d]” with 11 recommendations, “partially agree[d]” with 2 recommendations, and
“disagree[d]” with 11 recommendations.          Based on the response, we deleted one
recommendation (No. F.3) and revised one recommendation (No. 1.1) in the draft report.
Also based on the response, we consider 1 recommendation resolved and implemented and
12 recommendations       unresolved, and we request additional information for 10
recommendations. The status of each recommendation is in Appendix 3, and the Service’s
responses to the recommendations and our comments are presented within each finding.

Additional    Comments on Audit Report

The Service said that it “disagree[d]” with the overall “implicit conclusion” that the Royalty
Management Program’s automated information system was not in compliance with Office
of Management and Budget Circular A-130 and that it believes that it is in “substantial
compliance with the spirit and intent” of the Circular. Further, the Service stated that the
audit report “does not actually deal with the overall or general controls” because we did not
review redundant and compensating controls. In addition, the Service stated that “recurring
management control reviews have addressed such manual controls and generally found they
were working effectively or prompted corrective actions to resolve minor control
deficiencies.” Further, the Service stated that “audits performed under the Chief Financial
Officers Act of 1990 have covered these controls, and each report concluded that our
financial information was reliable.”

The criteria we used included not only Office of Management and Budget Circular A-130
but also standards and guidelines referenced in the Circular from the Department of
Commerce (National Institute of Standards and Technology), the General Services
Administration, and the Office of Personnel Management and policies and procedures of the
Department and the Program. Since the controls cited in and referenced by Appendix III of
Circular A-130 are “a minimum set of controls” to be included in an agency’s automated
information security program, we believe that any deviation from these minimum controls
would indicate that an agency’s automated information system security program does not
reduce risk to an acceptable level and ensure that an agency is in compliance with the
Circular. However, since our review identified weaknesses in the general controls over the


                                              6
    automated information system in the areas of security program development, access controls,
    software development and change management, separation of duties, system software
    controls, and service continuity, we do not believe that the Service’s “substantial
    compliance” with the minimum controls set forth in the Circular was adequate to address the
    potential risks identified by our review.

    While we stated that we did not evaluate the effectiveness of manual control procedures
    which may have operated as compensating controls in the scope section of the report, the
    audit staff did evaluate the general controls that were defined in the Program’s policies and
    procedures. Because redundant or compensating controls were not cited by the Program in
    its policies and procedures as the primary controls used to ensure the integrity,
    confidentiality, and availability of Program information, these controls were not evaluated.

    During the audit, we reviewed an Automated Information Systems Review that the Service
    performed in fiscal year 1996 which concentrated on the Program’s change management
    controls over applications in the mainframe environment. The Service’s review identified
    weaknesses concerning application testing and documentation that we also cited in the Prior
    Audit section of this report. Further, we found similar weaknesses in software development
    and change management         controls in the client/server environment (see Finding I in
    Appendix 1.)

    While we are not questioning that the financial statements were presented fairly, we found,
    as a result of our evaluation, inadequacies in the Program’s general controls over the
    automated information system in the areas of security program development, access controls,
    software development and change management, separation of duties, system software
    controls, and service continuity. These weaknesses, identified with the general controls, will
    result in our having to raise the overall level of risk of possible loss associated with the
    internal control structure of the Royalty Management Program in future financial statement
    audits.

    Regarding system security, we agree that system security controls implemented should be
    measured against costs and risks. However, the Program did not provide evidence that such
    a measurement study was performed. Further, our findings identified breakdowns in existing
    controls cited in the Program’s policies and procedures. While no system is completely free
    of errors, an adequate security program would provide a foundation for the Service to
    determine what controls were operating effectively and the level of risk that the Service is
.   mitigating with these controls.     .

    We disagree that the Program is being held to “unattainable standards” because the standards
    we used were those cited in Appendix III of Circular A- 130 as “the minimum set of controls”
    to be included in an agency’s automated information security program. In addition, in our
    evaluation of the Program’s general controls as defined in its policies and procedures, we
    found that the controls were not operating effectively.




                                                  7
We disagree with the Service’s statement that our findings did not demonstrate a “single
negative impact” because the impact of these inadequacies taken as a whole indicates that
there is no assurance that the overall risk to the Program was at an acceptable level.

In accordance with the Departmental Manual (360 DM 5.3), we are requesting a written
response to this report by April 17, 1998. The response should provide the information
requested in Appendix 3.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Minerals Management Service personnel in the conduct of
our audit.
                                                                                APPENDIX 1
                                                                                 Page 1 of 33

 DETAILS OF WEAKNESSES AND RECOMMENDATIONS

SECURITY        PROGRAM

A. Risk Assessments

Condition:   Risk assessments of the Royalty Management Program’s automated
             information system did not identify and address all risks affecting proprietary
             and financial data in the automated information system or correctly assess some
             of the risk elements. For example, we found that Program management did
             not:

                   - Identify and address the impact that (1) converting to the year 2000
             would have on application processing, (2) using system security software
             which is no longer supported by the vendor could have on operations, and (3)
             having royalty and financial information on local area network applications and
             personal computer databases could have on operations.

                   - Correctly assess the risk for the “Geopolitical” and “External
             Directives” elements, which were assessed as low risk. Significant geopolitical
             and external directives, such as the possible abolishment of the Program and
             the enactment of the Federal Oil and Gas Royalty Simplification and Fairness
             Act, have impacted the Program during the past 2 years. We believe that the
             level of risk associated with these elements was such that it increased the
             potential for lowering employee morale and thus increased the risk of sabotage
             or breach of other physical security measures, as well as the possibility of data
             errors and omissions that affect data and system integrity.

Criteria:     Office of Management and Budget Circular A- 130, Appendix III, “Security of
              Federal Automated Information Resources,” states that adequate security
              “includes assuring that systems and applications used by the agency operate
              effectively and provide appropriate confidentiality, integrity, and availability,
              through the use of cost-effective management,. personnel, operational, and
             ’technical controls.” The Circular further states that, although formal risk
              analyses need not be performed, “the need to determine adequate security will
              require that a risk-based approach be used.” According to the Circular, “This
              risk assessment approach should include a consideration of the major factors
              in risk management:         the value of the system or application, threats,
              vulnerabilities, and the effectiveness of current or proposed safeguards.” Also,
              the National Institute of Standards and Technology’s “An Introduction to
              Computer Security: The NIST Handbook” provides guidance on computer
              security risk management. The NIST Handbook specifically addresses the


                                              9
                                                                                  APPENDIX 1
                                                                                   Page2of33

SECURITY        PROGRAM

             selection of safeguards to mitigate risk and the acceptance of residual risk. In
             addition, Program policy requires that local area network administrators
             participate in the risk assessment process.

Cause:       Program management did not ensure that risk assessments were performed in
             accordance with risk management guidelines. Specifically, the assessments did
             not address (1) all risks associated with its automated information system, (2)
             the selection of safeguards to mitigate risks, and (3) the acceptance of residual
             risk. In addition, Program management did not effectively communicate the
             responsibility of local area network administrators to participate in risk
             assessments and had not adequately addressed that local area network
             applications and personal computer databases should be included in the
             Program’s security program.

Effect:      Without identifying all significant threats and vulnerabilities to the automated
             information system, Program management was unable to determine the most
             appropriate measures needed to protect against threats or reduce the
             vulnerabilities. Further, without including the Program’s local area network
             applications and personal computer databases as part of the risk assessments,
             there was little assurance that all threats and vulrrerabilities were identified and
             considered when Program security policies and plans were developed.
             Therefore, there was an increased risk that critical Program resources would. not
             be adequately protected and that expensive controls would be implemented for
             resources that did not require significant protection.

Recommendations:

We recommend that the Director, Minerals Management Service:

    1. Ensure that risk assessments are conducted in accordance with guidelines which
recommend that risk assessments support the acceptance of risk and the selection of
appropriate controls. Specifically, the assessments should address significant risks affecting
systems, appropriately identify controls implemented to mitigate those risks, and formalize
the acceptance of the residual risk.

    2. Formally assign and communicate responsibility to local area network administrators
to participate in risk assessments and ensure compliance with the Program’s security policy.

    3. Determine the risks associated with local area network applications and personal
computer databases which contain proprietary and financial data and, based on the results of
the risk assessments, establish appropriate security policies and procedures.

                                              10
                                                                                APPENDIX 1
                                                                                 Page 3 of 33

SECURITY        PROGRAM


Minerals Management           Service Response and Office of Inspector General
Reply

Based on the Service’s response, we request that the Service provide additional information
for Recommendation 3 and that it reconsider its responses to Recommendations 1 and 2,
which are unresolved (see Appendix 3).

Recommendation 1. Nonconcurrence.

    Service Response. The Service stated that it “plans to enhance and better document” its
risk assessment process. The Service further stated that it believed its “previous assessments
were in accordance with guidelines” because of the “rapidly changing computing and
communication environment.”

     Office of Inspector General Reply. We disagree that “previous assessments were in
accordance with guidelines.” Office of Management and Budget Circular A- 130, Appendix
III, and referenced standards and guidelines of the National Institute of Standards and
Technology state that “risk management is the process of assessing risk, taking steps to
reduce risk to an acceptable level, and maintaining that level of risk.” Since the Service did
not address a number of significant conditions/issues that affect risks to the Program’s
automated information system, identify the risks associated with these conditions, or identify
the controls in place to reduce the risks to an acceptable level, we believe that the Program’s
risk assessment process was not in accordance with the guidelines. Additionally, Appendix
III of Circular A- 130 was revised so that Federal computer security programs could better
respond to the rapidly changing technological environment. Although the Service disagreed
with the recommendation, we believe that its action to enhance and document its risk
assessment process is indicative of its intent to comply with the recommendation. However,
we request that the Service clarify its intent (see Appendix 3).

Recommendation 2. Nonconcurrence.             .
                         .                                                          . .
    Service Response. The Service stated that policies “define the LAN [local area network]
administrators’ role in contingency planning and security,” and it provided additional
information to support its position.

    Offke of Inspector General Reply. While the additional information did address the
administrators’ role in contingency planning and security, it did not address the
recommendation. The “RMP Automated Information Systems Security Manual” states that
administrators should participate in the risk assessment process. During our audit, we found


                                              11
                                                                                 APPENDIX 1
                                                                                  Page 4 of 33

SECURITY        PROGRAM

that the administrators were not always aware of their responsibilities to identify risks and
implement controls that would mitigate risks and that the administrators’ individual position
descriptions did not always address these responsibilities.

Additional    Comments        on Finding

The Service stated that it believes that we did not apply risk assessment criteria appropriately
because “Circular A- 130 states ‘the Appendix no longer requires the preparation offormal
risk analyses’ and that risk assessments ‘can be formal or informal, detailed or simpliJied,
high or low level, quantitative (computationally based) or qualitative (based on descriptions
or rankings), or a combination of these. No single method is best for all users and all
environments. “’

We agree that formal risk analyses are not required and that risk assessments can be formal
or informal. However, we found that the Program’s analyses were not based on risk-based
management as described by Appendix III of Circular A- 130 and referenced standards and
guidelines of other Federal executive branch agencies and the Departmental Manual (375
DM 19). According to the NIST Handbook, risk-based management “is the process of
assessing risk, taking steps to reduce risk to an acceptable level, and maintaining that level
of risk,” In its response, the Service provided additional information related to each of the
examples in this finding. However, the additional information provided did not indicate that
the Program used risk-based management in developing its controls.




                                              12
                                                                             APPENDIX 1
                                                                              Page 5 of 33

SECURITY       PROGRAM

B. Security-Related      Personnel Policies and Procedures

Condition:   The Program’s security-related personnel policies and procedures were not
             adequate to ensure system integrity. Specifically, we found that:

                    - Contractor employees received the same type of background check and
             security clearance regardless of their duties and the risk associated with the
             computer-related work they performed. Thus, contractor employees, such as
             system programmers and computer operators, who could bypass technical and
             operational controls, received the same security clearance as administrative
             assistants.

                    - Computer-related work was not technically reviewed by contractor or
             Program personnel whose position sensitivity was greater than that of the
             position sensitivity of individuals performing the work.

                    - Contractor employees did not always submit requests for background
             checks for security clearances. Further, the requests that were submitted for
             background checks were not submitted within the time frames specified in the
             contract. An average of 175 calendar days elapsed, instead of the 2 weeks
             stipulated in the contract, between the dates the employees were hired and the
             dates the requests were received by the Minerals Management Service’s
             Security Officer in Personnel for forwarding to the Office of Personnel
             Management. The Office of Personnel Management performed background
             checks for the same employees in an average of 84 days, and the Minerals
             Management Service approved the security clearances in an average of 22 days.
             Thus, most of the delay in the security clearance process was attributable to
             contractor and Program personnel.

                   - Systems Management Division employees did not have documentation
             to support that appropriate background checks for security clearances and
             required periodic followup background checks had been performed.                 .


Criteria:    The Departmental Manual (441 DM) specifies that position sensitivity should
             be based upon risk factors such as degree of public trust, fiduciary
             responsibilities, importance to program, program authority level, and
             supervision received. In addition, the Manual requires consideration of
             automated data processing (ADP) factors, such as the level of responsibility
             and technical review of work, for incumbents who are responsible for planning,
             directing, and implementing        computer security; planning, directing,
             implementing, operating, and maintaining computer systems; and accessing or

                                            13
                                                                                  APPENDIX 1
                                                                                   Page 6 of 33

 SECURITY         PROGRAM

               processing automated information records systems that contain proprietary
               data. Further, work is to be technically reviewed by individuals filling ADP
               “critical-sensitive” positions when individuals filling ADP “noncritical-
               sensitive” positions perform computer work such as directing, planning,
               designing, operating, and maintaining a computer system to ensure system
               integrity. In addition, the terms of the contract require that the “assistant
               manager” positions’ sensitivity level be ADP “critical-sensitive,” that
               background check requests be submitted to the Service within 2 weeks after
               an employee’s hire date, and that the employees be in probationary status until
               the background checks are completed and the security clearances are approved.

 Cause:        The Systems Management Division stti and the contractor staff who were
               responsible for technical reviews of the work were not in positions classified
               as ADP “critical-sensitive.” Additionally, Program contracting personnel did
               not ensure that contractor personnel (1) submitted requests for background
               checks and (2) remained in probationary status and did not perform critical
               computer work until background checks were completed and security
               clearances were approved. Further, personnel or security files did not reflect
               that appropriate background checks or that required periodic followup
               background checks were performed.

 Effect:       As a result, there was an increased risk that employees would perform critical
               automated information system operations and maintenance work without
               appropriate oversight or adequate assurance that their backgrounds would
               warrant such trust.

 Recommendations:

 We recommend that the Director, Minerals Management Service:

       1. Evaluate Systems Management Division and contractor ADP positions to determine
. position sensitivity in relation to risk and ADP factors. Also, assurance should be provided      ,
  that automated information system work is technically reviewed by persons whose position
  sensitivity levels are greater than the position sensitivity levels of the employees who are
  performing the work.

     2. Establish controls to ensure that the contractor is fulfilling its contractual obligation
 of submitting requests for background checks within the specified time frame and that
 contractor employees who are in probationary status and awaiting security clearances are not
 performing critical ADP work.



                                                14
                                                                               APPENDIX 1
                                                                                Page 7 of 33

SECURITY        PROGRAM

    3. Establish controls to ensure that personnel or security files accurately reflect that
background checks and periodic followup background checks are performed as required.

Minerals Management           Service Response and Office of Inspector General
Reply

Based on the Service’s response, we request that the Service provide additional information
for Recommendations 1 and 2 and that it reconsider its response to Recommendation 3,
which is unresolved (see Appendix 3).

Recommendation 1. Partially concur.

    Service Response. The Service stated it planned to “reevaluate the position sensitivity
level for the senior personnel in charge of the contractor activity to determine if those
position[s] should be classified at a higher level. In accordance with Departmental criteria,
most ADP [automated data processing] staff are designated noncritical sensitive. We doubt
it was the OIG’s [Office of Inspector General] intention to imply that all work must be
reviewed by persons at a higher sensitivity level; however, this would be impossible in a
multiple level organization because there are only two sensitivity levels from which to
choose, i.e., ‘noncritical-sensitive’ and critical-sensitive.“’

    Office of Inspector General Reply. The Departmental Manual identifies four
sensitivity levels. Further, although the Service indicated that some staff would have the
next higher security level of “critical-sensitive” to perform technical reviews, we found that
only one ADP staff position was classified as “critical-sensitive” and that the position was
not responsible for performing technical reviews. Although the Service only partially
concurred with the recommendation, we believe that the action to reevaluate position
sensitivity levels is indicative of its intent to comply with the recommendation.

Recommendation 2. Partially concur.

    Service Response. The Service said that it agreed that controls were needed to ensure
that the contractor submitted requests for background checks in a timely manner. The
Service further stated that the contractor had been “directed” and had “begun to track and is
accountable for the status of its submission of these requests.” The Service also said that it
agreed that contractor employees awaiting clearances should be in “probationary status” but
that having the employees not performing their assigned duties would be “unacceptably
costly.” According to the Service, it was “exploring alternatives” with the contractor such
as having the contractor “perform a preliminary ‘criminal and credit check’ which is quick
and inexpensive.”


                                              15
                                                                               APPENDIX 1
                                                                                Page 8 of 33

SECURITY        PROGRAM

     Offke of Inspector General Reply. Preliminary investigations would be a suitable
alternative to prohibiting contractor employees from performing their assigned duties before
the background clearances have been accomplished. Although the Service only partially
concurred with the recommendation, we believe that its action to evaluate alternatives such
as preliminary investigations is indicative of its intent to comply with this recommendation.

Recommendation 3. Nonconcurrence.

     Service Response. The Service stated that controls are “in place to ensure that personnel
or security files accurately reflect background checks.” The Service further stated that its
Office of Administration and Budget “maintains documentation and a tracking system” on
all security clearances and background checks of its employees and contractors. The Service
stated that it disagreed with our statement that followup background checks are required,
stating that it is in compliance with Department of the Interior guidance which states that
followup checks “are authorized only for national security positions and not for public trust
positions.”

    Office of Inspector General Reply. The Office of Administration and Budget’s
documentation and tracking system, while serving as part of the control, did not ensure that
personnel or security files accurately reflected that background checks were requested and
documented in the “official personnel files” of the employees.            Additionally, the
Departmental guidance included by the Service was dated 1993; however, the Code of
Federal Regulations (5 CFR l), dated 1997, states that followup background checks are
required of employees in positions that are for national security and other positions
considered to be “high risk.” The Office’s Security Officer verified that the Program has
employees in “high risk” positions, such as the Chief, Systems Management Division; the
Installation Security Offrcer; the Contractor’s Project Manager; and supervisors within the
Systems Management Division. As such, employees in these positions would be required
to have followup background checks.




                                              16
                                                                               APPENDIX 1
                                                                                Page 9 of 33

SECURITY       PROGRAM

C. Security Awareness         Statements

Condition:   We found that automated information system users did not have security
             awareness statements on file acknowledging the employees’ acceptance of their
             responsibilities to safeguard the Program’s proprietary data and assets.

Criteria:    The Department’s “Automated Information Systems Security Handbook”
             requires employees who use sensitive automated information system resources
             to sign statements acknowledging their responsibilities for the security of the
             resources. Additionally, the “RMP [Royalty Management Program] Automated
             Information Systems Security Manual” requires that employees sign a Minerals
             Management Service Security Statement, which acknowledges their
             responsibilities to safeguard Program-sensitive data and assets, and requires the
             Installation Automated Information System Security Officer (Installation
             Security Officer) to verify that security awareness statements are signed by the
             employees before their system access requests are approved.

Cause:       Program management did not ensure that its employees signed security
             awareness statements. In addition, the Installation Security Officer did not
             ensure that security statements were on file before the Installation Security
             Officer approved access to the automated information system.

Effect:      As a result, employees may not be aware of their responsibilities to safeguard
             automated information system data and assets and thus inadvertently disclose
             sensitive information.

Recommendation:

We recommend that the Director, Minerals Management Service, establish controls to
enforce Program policy which requires employees to sign security awareness statements
before access to system resources is approved by the Installation Automated Information
System Security Officer.




                                             17
                                                                               APPENDIX 1
                                                                               Page 10 of 33

SECURITY PROGRAM

Minerals Management           Service Response and Offke of hispector               General
Reply

Based on the Service’s response, we request that the Service reconsider its response to the
recommendation, which is unresolved (see Appendix 3).

The Service stated that while its own test sample confirmed that users have appropriate
access to the Program’s systems, it “concur[s] that [its] filing system for access approvals
needed improvement.” The Service further stated that all statements are “now consistently
filed and reconciled by the ADP security officer.”

The Service agreed with the recommendation and said that it was implemented. However,
while the security awareness statements referred to in the finding provide evidence that users
accepted their responsibility to safeguard the Program’s proprietary data and assets, these
statements do not support the appropriateness of access to Program systems. Without
familiarity with the methodology employed in the Service’s test, such as sample selection
and test performance, we must rely on the tests performed using statistical sampling software
and generally accepted Government auditing standards followed by the audit staff. Further,
the Service stated, in its response to Recommendation D.2, that “all MMS [Minerals
Management Service] employees are granted access to view royalty, production, and
reference data.” Accordingly, if the Service’s tests did not include all Service employees,
there is no assurance that all statements have been filed and reconciled. Therefore, we
consider this recommendation unresolved and request that the Service reconsider its response
to the recommendation (see Appendix 3).




                                             18
                                                                                               APPENDIX 1
                                                                                               Page 11 of 33

ACCESS CONTROLS

D. Resource Classifications

Condition:      The Program’s computer resources (data files, application programs, and
                computer-related facilities and equipment) were not classified appropriately to
                determine the levels of access controls that should be implemented over the
                resources.    For example, no “major application”’ was identified in the
                Program’s annual security plan, even though the applications and data files
                were “proprietary” and critical to the Program in accomplishing its mission and
                reporting financial information. Further, access controls over sensitive data on
                the servers used by the Program’s divisions were not as stringent as the access
                controls over sensitive data on the mainframe.

Criteria:       Office of Management and Budget Circular A-130, Appendix III, directs
                agencies to assume that all major systems contain some sensitive information
                that needs to be protected but to focus extra security controls on a limited
                number of particularly high-risk or major applications. According to the NIST
                Handbook, “Security levels, costs, measures, practices, and procedures should
                be appropriate and proportionate to the value of and degree of reliance on the
                information systems and to the severity, probability, and extent of potential
                harm.” Further, the determinations should flow directly from the results of risk
                assessments that identify threats, vulnerabilities, and the potential negative
                effects that could result from disclosing confidential data or failing to protect
                the integrity of data supporting critical transactions or decisions. Accordingly,
                Program policy requires that users be given access only to the resources needed
                to perform their assigned duties.

Cause:          Program management had not identified the resources that needed significant
                protection. Further, Program management did not require application owners
                who are responsible for approving user access levels to the applications to
                classify their resources based on the level of sensitivity of the information
                contained in their applications.
   .
Effect:         As a result, there was an increased risk that resources were not adequately
                protected from unauthorized access and disclosure and therefore were subject
                to either accidental or intentional changes to computer operations and data.


‘Office of Management and Budget Circular A-130, Appendix III, identifies a “major application” as an
“application that requires special attention to security due to the risk and magnitude of harm resulting from the
loss, misuse, or unauthorized access to or modification of the information in the application.” The Appendix
further states that “certain applications, because of the information in them, however, require special
management oversight and should be treated as major.”

                                                       19
                                                                                APPENDIX 1
                                                                                Page 12 of 33

ACCESS CONTROLS

             Conversely, the level of protection provided for low-risk resources may be in
             excess of that required. Furthermore, Program management did not have a
             reliable basis for making critical decisions regarding security safeguards for its
             sensitive applications.

Recommendations:

We recommend that the Director, Minerals Management Service:

    1. Ensure that individual computer resources are classified based on the level of
sensitivity associated with each resource.

    2. Evaluate controls over resources to ensure that the access controls have been
implemented commensurate with the level of risk and sensitivity associated with each
resource.

Minerals Management           Service Response and Office of Inspector General
Reply

Based on the Service’s response, we request that the Service reconsider its response to
Recommendations 1 and 2, which are unresolved (see Appendix 3).

Recommendation      1. Nonconcurrence.

    Service Response. The Service said that it believed that its “current classifications are
appropriate.” The Service further stated that its mainframe systems “receive heightened
security because they are more mission critical, not because they are more sensitive” and that
these systems “must be protected more strenuously to ensure the integrity of the official
records.” The Service also stated: “A more moderate level of protection is necessary for
proprietary information than for mission critical information. The umbrella protection
mechanism for all types of proprietary information is physical controls coupled with
employee training.”

    Office of Inspector General Reply.            We disagree that the Service’s current
classifications are appropriate. In its response to Recommendation M.1, the Service
indicated that the Program had not identified all “mission critical” systems. Further, in our
opinion, mission critical systems resided on personal computers and local area networks that
supported the Program’s mission to accurately and timely disburse rents, bonuses, and
royalty revenues to the U.S. Treasury, the states, and the Indian tribes, as well as financial
transactions and external reporting. Additionally, the Service stated that the umbrella
protection over its proprietary data, which do not reside on the mainframe computer, is

                                             20
                                                                                   APPENDIX 1
                                                                                   Page 13 of 33

ACCESS CONTROLS

limited to “physical controls” and “employee training.” However, these controls do not
meet the minimum controls required for Federal automated information resources. The
purpose of resource classification is to provide a basis for determining the controls necessary
to ensure appropriate implementation of risk-based management, as required by Office of
Management and Budget Circular A-l 30, Appendix III.

Recommendation 2. Nonconcurrence.

     Service Response. The Service said that it believes that its “existing access controls over
resources already meet the intent of this recommendation.” The Service further stated that
all of its employees “are granted access to view royalty, production, and reference data.
Since most of this data is proprietary, employees are trained in its proper use and must sign
statements acknowledging their responsibility to protect it. State and Tribal employees have
access to such data within their jurisdictions only. The ability to add or change data is
limited to those employees who require that access to perform their jobs.”

    Office of Inspector General Reply. We disagree that the Service’s existing access
controls meet the intent of the recommendation. By its response, we inferred that the Service
had not complied with the personnel control of “least privilege” required by Appendix III of
Circular A-130 and the “RMP Automated Information Systems Security Manual.” The
Circular defines least privilege as “the practice of restricting a user’s access (to data files, to
processing capability, or to peripherals) or type of access (read [which means to view], write,
execute, delete) to the minimum necessary to perform” an employee’s job. Further, the
Program’s Manual states, “[Plrivileges granted to users are only those privileges that are
absolutely necessary for job performance.” In addition, Appendix III of Circular A- 130 and
the Departmental Manual (375 DM 19) state that the “greatest threat” to most computer
systems comes from authorized users. However, as stated by the Service, “All [Service]
employees are granted access to view royalty, production, and reference data.” Therefore,
we believe that allowing all Service employees to have access to view Program data indicates
that access controls were not implemented commensurate with the level of risk and
sensitivity of each resource. Further, as cited in Findings E, F, and G in this report, controls
over access were inadequate; therefore, we believe that the Service’s current access controls
over resources do not meet the intent of the recommendation.




                                                21
                                                                                          APPENDIX 1
                                                                                          Page 14 of 33

ACCESS CONTROLS

E. Default Settings Provided With Commercial                          Off-the-Shelf       Software

Condition:     Default settings provided with commercial off-the-shelf software were not
               removed after the software was installed and implemented. For example, we
               found that the default user identification (ID) and associated default password
               had not been removed when Program management upgraded to the latest
               version of the Integrated Data Management System (IDMS).2 The default user
               ID provides users with administrative privileges to establish and remove users
               and to access all mainframe computer resources.

Criteria:      The “RMP Automated Information Systems Security Manual” requires that
               default user IDS and passwords be removed once commercial off-the-shelf
               software is implemented.

Cause:         Rather than deleting the default user ID and password, Program management
               relied on the mainframe security software to protect against unauthorized
               access.

Effect:        As a result, there was an increased risk that the automated information system
               could be accessed by unauthorized users.

Recommendation:

We recommend that the Director, Minerals Management Service, implement controls to
enforce Program policy that default user IDS and passwords are to be removed from the
automated information system when commercial off-the-shelf software is implemented.

Minerals Management               Service Response and Office of Inspector General
Reply

In its response, the Service indicated agreement with the recommendation. However, the
Service needs to provide additional information for the recommendation (see Appendix 3).

Additional      Comments on Finding

Even though the Service agreed with this recommendation, it stated that our conclusion was
incorrect that “the use of this default ID allows access to all mainfmme computer resources”
because “the security architecture prevented” the misuse of resources. The security

21ntegrated Data Management System (RIMS) is a licensed product of Computer Associates International, Inc.,
which manages database applications that reside on mainframe computers.

                                                    22
                                                                               APPENDIX 1
                                                                               Page 15 of33

ACCESS CONTROLS

architecture requires that a user who wants to access the mainlkme have a “valid RACF
logon password” and a “user ID defined to the data dictionary.” We disagree that the security
architecture prevented the misuse of resources. Vendor documentation states that the default
ID can be used to establish a user in the dictionary and perform all activities cited in this
finding. In addition, we found that at least two applications did not rely on the Program’s
“security architecture.”




                                            23
                                                                                          APPENDIX 1
                                                                                          Page 16 of 33

ACCESS CONTROLS

F. Commercial         Off-the-Shelf        Software Access Controls

Condition:     Commercial off-the-shelf software access controls were not implemented to
               safeguard against unauthorized access to the mainframe computer, personal
               computers, and servers. Specifically, we found that:

                      - Resource Access Control Facility (RACF)3 provides the capability to
               set rules for passwords in which the installation can require the use of specific
               characters (a mix of letters and numbers) within the passwords, but this feature
               was not used.

                    - A default security setting was found on a server file that allows
               passwords to be unencrypted.

                      - The “SECURE CONSOLE” command was not found on a server file
               which removes the Disk Operating System (DOS) from the server memory.
               The removal of DOS from the server memory prevents an individual from
               inserting a diskette into the server drive and loading unauthorized software that
               could perform such functions as change passwords, establish trustee rights,
               create users, and assign security levels. Also, the “SECURE CONSOLE”
               command disables the users’ ability to change the server date and time, thus
               allowing users to bypass access restrictions.

Criteria:      Office of Management and Budget Circular A-l 30, Appendix III, requires
               agencies to establish controls to ensure adequate security for all information
               processed, transmitted, or stored in Federal automated information systems.
               Also, the Department’s “Automated Information Systems Security Handbook”
               states that proprietary, personnel, sensitive, and mission-critical information
               should be protected from unauthorized disclosure. In addition, the Program’s
               Automated Information Systems Security Manual states that a mix of letters
               and numbers is recommended for passwords used to access the Program’s
               automated information system.

Cause:         The Program’s policy recommended rather than required the use of a mix of
               both letters and numbers in passwords to access its automated information


‘Resource Access Control Facility (RACY) is an IBM-licensed software security product that protects
information by controlling access to the information. RACF provides security by identifying and verifying
users to the system, authorizing users’ access to protected resources, and recording and reporting access
attempts. (Resource Access Control Facility General Users Guide. Version 1. RelW          9th edition, IBM
Corp., 1993, page l-l.)

                                                   24
                                                                              APPENDIX 1
                                                                              Page 17 of 33

ACCESS CONTROLS

             system. In addition, there was no centralized security administration for the
             local area networks and personal computers that contain proprietary and
             financial data, and no Program procedures were in place to ensure that controls
             were adequate to safeguard these local area networks and personal computers.

Effect:      As a result, there was an increased risk that unauthorized access could be
             gained to the automated information system, which could result in the loss of
             data and in unauthorized individuals gaining access to sensitive data files.

Recommendations:

We recommend that the Director, Minerals Management Service:

     1. Evaluate the current Program policy which only recommends that passwords contain
a mix of letters and numbers for all automated information system components. Implement,
if the Program determines that a mix of letters and numbers should be required, the security
software option within RACF that would enforce this requirement.              If the Program
determines that a mix of letters and numbers is not required, the risk should be addressed in
the risk assessment.

    2. Develop and implement centralized security administration for the local area
networks used by the Program’s divisions that contain proprietary and financial data.

Minerals Management          Service Response and Office of Inspector General
Reply

In its response, the Service indicated agreement with both recommendations. However, the
Service needs to provide additional information for Recommendations 1 and 2 (see Appendix
3).




                                             25
                                                                               APPENDIX 1
                                                                               Page 18 of 33

ACCESS CONTROLS

G. Access Levels Granted

Condition:   We found that controls were not adequate to ensure that access levels granted
             to users of the Program’s automated information system were appropriate.
             Specifically, access managers had not approved all automated information
             system access granted to users of the access managers’ applications and had not
             performed periodic reviews to determine who the users were and whether the
             levels of access granted in the automated information system were the access
             levels approved.

Criteria:    The “RMP Automated Information Systems Security Manual” states that
             supervisors and managers are responsible for ensuring that employees’ ADP
             access certifications are appropriate for the job they will perform before users
             are set up to access the automated information system. Also, the “Generally
             Accepted Principles and Practices for Securing Information Technology
             Systems,” issued by the National Institute of Standards and Technology, states:
             “It is necessary to periodically review user account management on a system.
             Reviews should examine the levels of access each individual has, conformity
             with the concept of least privilege, whether all accounts are still active, [and]
             whether management authorizations are up-to-date.”

Cause:       Program management had not ensured that its policies were implemented
             effectively because access managers were not included in the process of
             approving access to the automated information system. Additionally, the
             Program’s policies and procedures did not require that access managers
             perform periodic reviews of users’ levels of access to application files and
             system records. In addition, Program management could not efficiently,
             through automated means, perform reconciliations of authorization forms and
             access levels granted in the automated information system because the audit
             tools available for the automated information system had not been acquired.
             Although automated capabilities were not acquired, Program management
             could ensure that user access levels were appropriate to the work performed
             through a recertification process whereby users resubmit the ADP access
             certifications annually.

Effect:      As a result, there was an increased risk that unauthorized access, data
             manipulation, or disclosure of proprietary information may occur. In addition,
             a periodic review of access files may limit the damage resulting from accidents,
             errors, or unauthorized use of automated information system resources and
             increase assurance that access levels were revised when users were reassigned
             or promoted or they terminated their employment. Additionally, since periodic

                                             26
                                                                                 APPENDIX 1
                                                                                 Page 19 of 33

ACCESS CONTROLS

             reviews were not performed, there was an increased risk that unauthorized
             access would not be detected or detected timely.

Recommendations:

We recommend that the Director, Minerals Management Service:

    1. Implement controls to ensure that access managers approve all access to their
applications in accordance with Program policy.

     2. Document procedures which require that users’ access levels be reviewed periodically
or that employees be recertified to ensure that the levels of access granted are appropriate for
the duties assigned to the users.

Minerals Management           Service Response and Office of Inspector General
Reply

Based on the Service’s response, we request that the Service reconsider its responses to
Recommendations 1 and 2, which are unresolved (see Appendix 3).

Recommendation      1. Nonconcurrence.

    Service Response. The Service stated that it believes that “effective controls have been
in place to assure that application managers approve all access to their applications.” It
further stated that it “acknowledge[d] that our filing system for such approvals needed
improvement and are in the process of resolving this problem.”

     Offke of Inspector General Reply. We disagree that effective controls were in place
which ensured that application managers approved all access to their applications. We found
that the Program did not enforce its policy which required application managers to approve
all access granted to users of their applications. We performed a statistical test of users who
had access to Program applications and production data and found that over 10 percent of
those users tested did not have their access approved by the application manager or the
Installation Security Officer. We discussed access approvals with application managers and
found that these managers were unaware of how many of the users had access to the
managers’ applications. Therefore, the problem was not attributable to the “filing system”
but to the lack of enforcement of Program policy.




                                              27
                                                                                APPENDIX 1
                                                                                Page 20 of 33

ACCESS CONTROLS

Recommendation 2. Concurrence.

     Service Response. The Service stated that it “concur[red] with the need to document
these procedures” but “disagree[d] with the OIG’s [Office of Inspector General] implication
(in its statement of effect) of any significant risk of security breaches.” The Service further
stated: “Access to mission-critical systems has been carefully managed and controlled
through documented security procedures and controls, including mainframe access matrices
and annual reviews by the Security Manager. Our own tests confiied that no unauthorized
access exists or has existed.”

     Office of Inspector General Reply. The Service agreed that procedures should be
documented but stated that it had procedures and controls in place for mission-critical
systems. However, we disagree that adequate procedures and controls were in place because
the Program’s procedures did not address periodic reviews of users’ access levels. The
Service disagreed that any significant risk of security breaches would occur because mission
critical systems are “carefully managed and controlled” through “documented security
procedures and controls.” Since the Service stated in its response to Recommendation M. 1
that it had not identified all mission critical systems, it is unclear how the Service managed
and controlled its mission critical systems. Regarding the annual review, under the current
version of the security software, a review of user access levels within the system could not
be performed. Therefore, the Program’s procedures did not ensure that all users’ access
levels were reviewed periodically and that the levels of access granted were appropriate for
the duties assigned to the users, thus ensuring implementation of “least privilege.” Further,
the use of the matrix identified users within a group and the group’s levels of access, but it
did not identify access levels for each user. In addition, without familiarity with the
methodology employed in the Service’s test, such as the sample selection and test
performance, we must rely on the tests performed using statistical sampling software and
generally accepted Government auditing standards followed by the audit staff.




                                              28
                                                                              APPENDIX 1
                                                                              Page 21 of 33

ACCESS CONTROLS

H. Number of Log-in Attempts

Condition:   The Program’s number of unsuccessful log-in attempts to access its automated
             information system exceeded the standard established by the Department.
             Specifically, in 1992, Program management increased the number of
             unsuccessful log-in attempts from three to five before a user’s ID and password
             were revoked.

Criteria:    The Department’s “Automated Information Systems Security Handbook” states
             that the number of unsuccessful log-in attempts should be three.

Cause:       Program management did not follow the Departmental standard because, they
             stated, it was difficult for some state and tribal organizations, which are
             external customers, to access the mainframe computer through telephone lines.

Effect:      As a result, the increased number of invalid attempts reduced the effectiveness
             of the password as an access control. Thus, there was an increased risk of
             unauthorized access to sensitive information.

Recommendation:

We recommend that the Director, Minerals Management Service, evaluate the need to
deviate from the Departmental standard for the number of unsuccessful log-in attempts. If
the Program determines that this number should remain at five, Program management
should request, from the Department, a waiver from the standard of three attempts.

Minerals Management          Service Response and Office of Inspector General
Reply

Based on the Service’s response, we consider this recommendation              resolved and
implemented (see Appendix 3).




                                            29
                                                                               APPENDIX 1
                                                                               Page 22 of 33


SOFTWARE           DEVELOPMENT            AND CHANGE MANAGEMENT

I. Client/Server    Application     Software Changes

Condition:   Change management controls over client/server application software were not
             adequate. Specifically, we found that there were no controls to ensure that: (1)
             Program management authorized and approved software changes and (2)
             the changes to the application software were adequately tested before the
             changed software was moved into production.

Criteria:    National Institute of Standards and Technology Special Publication 500-l 61,
             “Software Configuration Management: An Overview,” states that software
             configuration control management procedures should define the specific steps
             taken to analyze and evaluate the change request, clarify tbe meaning of the
             request, and resolve the problem described. In addition, the procedures should
             identify the appropriate individuals or organization responsible for evaluating
             the requests and discuss the submission of the evaluation results to the
             appropriate review board or individuals for approval or disapproval. Federal
             Information Processing Standards Publication 106, “Guideline on Software
             Maintenance,” states that testing is a critical component of software
             maintenance and that, as such, test procedures must be consistent and based on
             sound principles. Further, the Publication states that tests should examine
             whether the application software is “doing what it is supposed to do.”

Cause:       Program management did not enforce procedures for authorizing, approving,
             and testing client/server application software.

Effect:      As a result, there was an increased risk that the most critical client/server
             application software changes were not made and that applications would not
             perform as intended.

Recommendation:

We recommend that the Director, Minerals Management Service, enforce its procedures for
authorizing, approving, and testing client server application software before the software is
moved into production.




                                             30
                                                                             APPENDIX 1
                                                                             Page 23 of 33


SOFTWARE         DEVELOPMENT             AND CHANGE MANAGEMENT

Minerals Management          Service Response and Offhe of Inspector General
Reply

In its response, the Service stated that the documented procedures “are already in place.”

Although the Service provided additional information in its response showing that
client/server software development and change management procedures had been in place
since 1995, the information, which we requested, was not provided during our audit. Based
on the subsequent information provided by the Service, we agree that the Service has
documented procedures. However, we found that these procedures had not been enforced
during fiscal year 1997. Specifically, in our review of four client/server applications, we
found no evidence to support that software changes were authorized, approved, and tested.
Therefore, we have revised this finding and recommendation and request that the Service
respond to the revised recommendation (see Appendix 3).




                                            31
                                                                                   APPENDIX 1
                                                                                   Page 24 of 33


SEPARATION          OF DUTIES

J. Duties Related to Client/Server           Applications

Condition:   The duties related to client/server applications were not separated effectively.
             Specifically, we found that:

                   - Application programmers were authorized to access client/server
             production data to perform “ongoing maintenance” on applications.

                  - At least one application programmer acted as a backup to an end user,
             which required the programmer to change production data in the Minerals
             Management Service Appeals Tracking System.

                   - The individual responsible for setting up users of the Royalty
             Management Program Desktop applications was also the person designated to
             review server security logs, which record the activities of the users of the
             applications.

Criteria:    Office of Management and Budget Circular A-130, Appendix III, requires that
             security controls for personnel include least privilege and separation of duties.
             The Circular states, “Least privilege is a practice of restricting a user’s access
             (to data files, to processing capability, or to peripherals) or type of access (read,
             write, execute, delete) to the minimum necessary to perform his or her job.”
             Separation of duties is the practice of dividing the steps in a critical function
             among different individuals. Also, the MST Handbook states, “Separation of
             duties refers to dividing roles and responsibilities so that a single individual
             cannot subvert a critical process.” The “RMP Automated Information Systems
             Security Manual” states, “Access to sensitive data is limited to those persons
             who use or process the data in performing their official duties.”

Cause:       Program management did not appropriately assign duties for application
             programmers to ensure that critical processes were not subverted. Specifically,
             programmers should not have access to production data because access to
             production data should be restricted to users. Also, Program management had
             not ensured that independent reviews of server security logs were performed
             periodically.

Effect:      As a result, there was an increased risk that accidental or intentional
             unauthorized actions by programmers could threaten the integrity of the
             Program’s data and disrupt system processing. Furthermore, there was an


                                              32
                                                                             APPENDIX 1
                                                                             Page 25 of 33



SEPARATION          OF DUTIES

             increased risk that inappropriate actions by the individuals who established
             system users would not be detected or would not be detected timely.

Recommendations:

We recommend that the Director, Minerals Management Service:

    1. Implement controls to ensure that application programmers do not have access to the
production client/server application data or the capability to update/change these data.

    2. Improve detection controls by ensuring that management or the Installation Security
Officer reviews server security logs periodically.

Minerals Management          Service Response and Offke of Inspector            General
Reply

Based on the Service’s response, we request that the Service provide additional information
for Recommendation 2 and that it reconsider its response to Recommendation 1, which is
unresolved (see Appendix 3).

Recommendation 1. Nonconcurrence.

     Service Response. The Service stated: While application programmers do not
routinely require update access to any RMP [Royalty Management Program] production
data, there are instances when temporary access is needed by specific programmers under
controlled circumstances.     To mitigate any future risks associated with this access,
procedures have been reinforced which detail actions to be taken when requesting temporary
access to mainframe and client/server production data.” The Service also “refute[d]” our
statement that application programmers serve as backups to end users.

    Offke of Inspector General Reply. The Service indicated that procedures were in place
to control the risk when application programmers had update access to Program data.
However, we did not find such procedures; therefore, we could not test the procedures to
ensure that temporary access was provided to specific programmers under controlled
circumstances.   To resolve this recommendation, the Service is requested to provide
documentation of the procedures the Program uses that mitigate risk when programmers are
allowed update access to production data.




                                            33
                                                                             APPENDIX 1
                                                                             Page 26 of 33



SEPARATION          OF DUTIES

Regarding application programmers serving as backups to end users, we found during our
audit that a programmer analyst had been given access to a client/server application to
change the database, to make table updates, and to print reports. According to Program
personnel who were responsible for the application, this access was authorized so that the
programmer could provide backup duties to a Program employee.

Recommendation     2. Concurrence.

    Service Response. The Service stated that the contractor was “being directed to address
the review of server security logs within their overall internal control procedures.”

    Offke of Inspector General Reply. We accept the Service’s alternative of having the
contractor review the logs rather than Program management or the Installation Security
Officer. However, regardless of who does the review, the procedures must ensure adequate
separation of duties between the key functions of the security log reviewer and the security
administrator.




                                            34
                                                                              APPENDIX 1
                                                                              Page 27 of 33

SYSTEM SOFTWARE               CONTROLS

K. Security Software

Condition:   The version of RACF, the commercial mainframe security software, that was
             used by the Program was no longer supported by the vendor. Although the
             upgraded version of R4CF had been purchased, it had not been implemented.

Criteria:    Federal Information Processing Standards Publication 106, “Guideline on
             Software Maintenance,” states that “the goal of software maintenance
             management is to keep systems functioning.”

Cause:       Program management had not implemented the upgraded version of RACF
             because management was in the process of requesting a waiver from the
             Department from consolidating its mainframe operations with another
             mainframe operation, which has the upgraded RACF, as required by Office of
             Management and Budget Bulletin 96-02, “Consolidation of Agency Data
             Centers.” If the waiver is granted to the Program, the upgraded version of
             RACF will need to be implemented immediateIy.

Effect:      Using security software that was not supported by the vendor increased the risk
             that security software would not be maintained and that programs and data files
             would not be protected from unauthorized access.

Recommendation:

We recommend that the Director, Minerals Management Service, ensure that the upgraded
version of ILACF is implemented immediately if the Program is granted a waiver from
consolidating its mainframe operations with another mainframe operation.

Minerals Management         Service Response and Office of Inspector General
Reply

In its response, the Service stated that it believes that we “misunderstood the effects of
delaying this software upgrade. Although this is a moot point now that MMS [Minerals
Management Service] has replaced its processor, the decision not to upgrade the RACF
software was well founded.”

Although the Service indicated that it had replaced its processor, we were not provided
information to determine whether the Service has ensured that the upgraded version of RACF
or equivalent security software was implemented on the new processor. Therefore, we



                                            35
                                                                              APPENDIX 1
                                                                              Page 28 of 33

SYSTEM SOFTWARE                CONTROLS

consider this recommendation unresolved and request that the Service reconsider its response
to the recommendation (see Appendix 3).

Additional    Comments       on Finding

The Service stated that the Program “initially delayed the upgrade because it was considering
a processor replacement that would require an entire new suite of mainframe software
products.” The Service further stated, “Upgrading RACF at that time would have been an
inherently risky and potentially expensive decision.” Regarding these statements, we were
not provided any documentation .to support these statements that the decision to not
implement the upgraded version of RACF was based on the Service’s plan to implement a
new processor or that the upgrade of RACF would be “risky and potentially expensive.”




                                            36
                                                                                         APPENDIX 1
                                                                                         Page 29 of 33

SYSTEM SOFTWARE                    CONTROLS

L. Mainframe         Computer System Audit Tools

Condition:     Program management did not use available system audit tools to ensure
               integrity over system processing and data and to detect inappropriate actions by
               authorized users. Specifically, we found that:

                      - System integrity verification and audit software was not used, This
               software could assist data center and installation security management in
               identifying and controlling the mainframe computer operating system’s security
               exposures such as setting system options inappropriately, installing “back
               doors” to the operating system, and introducing viruses and Trojan horses, that
               can destroy production dependability and circumvent existing security
               measures.

                       - Computer operators and system programmers had the capability to
               change the system initialization process and thus affect system processing.
               Additionally, system options that produce a system audit trail were not
               implemented. Therefore, an audit trail that logs the results of actions taken by
               computer operators and system programmers in the SYSLOG during system
               initialization could not be produced for periodic review.

                      - Periodic reviews of System Management Facility (SMF) logs to identify
               critical events affecting system processing were not performed.4 For example,
               reviews were not performed of record type 7, which records when the system
               audit trail is lost, and record type 90, which records events such as “SET
               TIME,” “SET DATE,” and “SET SMF,” all of which affect system processing
               and production of audit trails.

                      - Periodic reviews of SMF logs to identify unauthorized changes to data
               by authorized users were not performed. Even though one of the SMF record
               types, record type 60, which logs all activity affecting Virtual Storage Access
               Method data sets that contain lease and site security data, was activated during
               our audit, the logs were not reviewed to detect inappropriate actions or unusual
               activity by authorized users.

Criteria:      Office of Management and Budget Circular A-130, Appendix III, requires
               agencies to establish controls to ensure adequate security for all information
               processed, transmitted, or stored in Federal automated information systems, In

be System Management Facility (SMF) logs record all system activity and serve as an audit trail of system
activity, including identification of users who performed the activity.

                                                   37
                                                                               APPENDIX 1
                                                                               Page 30 of 33

SYSTEM SOFTWARE               CONTROLS

             addition, the Circular states that individual accountability is one of the
             personnel controls required in a general support system. The Circular further
             states that an example of one of the controls to ensure individual accountability
             is reviewing or looking at patterns of users’ behavior, which requires reviews
             of the audit trails. The NIST Handbook states that audit trails are a technical
             mechanism to achieve individual accountability.

Cause:       Program management did not acquire system integrity and verification
             software, did not implement system options to record actions taken affecting
             system initialization, did not encourage the use of available system audit trails
             to detect and identify inappropriate actions affecting the system processing and
             data integrity, and did not establish procedures requiring periodic reviews of
             resultant logs because the logs were extensive and difficult to read. Further,
             Program management had not considered converting the logs to a more useful
             format to extract critical information. Instead, Program management relied on
             its staff to make appropriate changes to the system initialization process and on
             authorized users to make only appropriate changes.

Effect:      As a result, inappropriate mainframe computer system initialization and
             processing were not recorded and identified. Additionally, without periodic
             reviews of the system audit trails, there was an increased risk that processing
             problems or unauthorized activities would not be detected or would not be
             detected timely and that the individual responsible would not be held
             accountable for the inappropriate actions.

Recommendations:

We recommend that the Director, Minerals Management Service:

    1. Evaluate acquiring system verification and auditing software.

     2. Implement the system options to record activities in the SYSLOG during the system
initialization process and develop and implement procedures to ensure that periodic reviews
of the SYSLOG for unauthorized or inappropriate activities are performed and that
unauthorized or inappropriate activities are reported to Program management.

     3. Evaluate the available SMF record types and implement procedures to ensure that
critical SMF logs are reviewed periodically and that Program management addresses the
problems identified.




                                             38
                                                                               APPENDIX 1
                                                                               Page 3 1 of 33

SYSTEM SOFTWARE                CONTROLS

Minerals Management           Service Response and Offke of Inspector General
Reply

In its response, the Service indicated agreement with Recommendations 2 and 3. However,
the Service needs to provide additional information for Recommendations 2 and 3 and needs
to reconsider its response to Recommendation 1, which is unresolved (see Appendix 3).

Recommendation 1. Nonconcurrence.

    Service Response. The Service stated that the Program “routinely uses a number of
system-assurance mechanisms such as control reports, system-assurance programs and user-
reconciliation reports” but that it “remains alert to any technologic developments that would
improve system integrity and operations.” The Service further stated, “AS these packages
become available, they will be examined for applicability to the RMP [Royalty Management
Program] computing environment.”

     Office of Inspector General Reply. The mechanisms cited by the Service provide
information related mainly to application processing system assurance. Although the Service
said that it will evaluate the use of software packages to assist in providing assurance over
system integrity and operations, the Service should state concurrence or nonconcurrence with
the recommendation to evaluate the acquisition of operating system-verification and auditing
software that would identify mainframe operating system security exposures.




                                             39
                                                                                APPENDIX 1
                                                                                Page 32 of 33



SERVICE CONTINUITY

M. Disaster Recovery         Plans

Condition:   Local area networks and personal computers used by the Program’s divisions
             that maintain proprietary and financial data were not included in the Program’s
             disaster recovery plans.

Criteria:    Office of Management and Budget Circular A-130, Appendix III, states that
             agencies should establish a contingency plan and periodically test the plan to
             ensure that operations will continue in the event that automated systems fail.

Cause:       Program management did not ensure that all systems which maintain
             proprietary and financial data were included in its disaster recovery plans.

Effect:      If the disaster recovery plans are incomplete because all sensitive systems are
             not included, personnel required to perform the disaster recovery procedures
             may not be able to recover critical systems in the event of a disaster or a system
             failure.

Recommendation:

We recommend that the Director, Minerals Management             Service, update the disaster
recovery plans to include all mission-critical systems.

Minerals Management          Service Response and Offke of Inspector General
Reply

Based on the Service’s response, we request that the Service provide additional information
for the recommendation (see Appendix 3).

Additional    Comments on Finding

The Service stated, “We believe the disaster recovery plans we have in place for our
mainframe and client servers provide coverage for virtually all of our mission-critical
applications.” In our opinion, this statement implies that disaster recovery plans are not
required for other components of the Program’s automated information system, such as local
area networks and personal computers used by the Program’s divisions. The local area
networks and personal computers used by the Program’s divisions were the components of
the automated information system used to develop the Program’s financial statements and


                                             40
                                                                               APPENDIX 1
                                                                               Page 33 of 33



SERVICE       CONTINUITY

to report financial information to the U.S. Treasury and the Office of Management and
Budget. Further, these components also support the Program’s mission to accurately and
timely disburse rents, bonuses, and royalty revenues to the U.S. Treasury, the states, and the
Indian tribes. Therefore, we believe that these components not only are “mission critical”
to the Program but also are part of the Program’s general support system. Offke of
Management and Budget Circular A-130, Appendix III, defines general support systems as
“an interconnected set of information resources under the same direct management control
which shares common functionality.” Further, the Circular addresses the need for continuity
of support for general support systems as well as major applications.




                                             41
                                                                             APPENDIX 2
                                                                              Page 1 of 11

                   United States Department of the Interior
                               MINERALS MANAGEMENT SERVICE
                                        Washington. DC 20240


                                          JAN 16 1998



Memorandum

To:           Assistant Inspector General for Audits




From:          Cynthia Quartet-man
        Rccr\g Director, Minerals Management Service

Subject:       Office of Inspector General Draft Audit Report A-IN-MMS-00 l-97, “General
               Controls Over the Automated Information System, Royalty Management
               Program, Minerals Management Service”

Thank you for the opportunity to respond to this draft report on the general controls over our
royalty automated information system. Of the 24 Recommendations, we agree with 11, partially
agree with 2, and disagree with 11. We’re sending you our general comments on the audit
findings and specific ones on the recommendations. We’ve also included nine Enclosures to our
response as additional background material for your review.

Please contact Bettine Montgomery at (202) 208-3976 if you have any further questions.




Attachments




      [ENCLOSURES REFERRED TO IN THE MINERALS MANAGEMENT SERVICES’
      RESPONSE NOT INCLUDED BY THE OFFICE OF INSPECTOR GENERAL.]
                                             42
                                                                                APPENDIX 2
                                                                                 Page2ofll

             . ..
  MINE~LSMANAGEMENTSERVICERESPONSET~DRAFTAUDITREP~RT
   "GENERALCONTROLSOVERTHEAUTOMATEDINFORMATIONSYSTEM,
  ROYALTYMANAGEMENTPROGRAM,MINERALSMANAGEMENTSERVICE"

Audit Agency: Office of Inspector General (OIG)

Audit Number: A-IN-MMS-00 l-97

 We appreciate the opportunity to comment on this draft report. MMS shares OIG’s concern for
 security and controls and concurs with some of the findings and recommendations presented in
 the report. In fact, the Royalty Management Program (RMP) is actively implementing solutions
 to rectify some of the weaknesses pointed out by the OIG and to enhance system security. We
 concur with OIG’s use of OMB Circular A- 130 as the principal criteria for evaluation; however,
we cannot agree with OIG’s implicit conclusion that RMP systems do not comply with the
 Circular. It is important to recognize.these criteria are general, leaving considerable room for
judgement and interpretation based on the individual facts and circumstances.

We indeed believe RMP systems are in substantial compliance with the spirit and intent of the
OMB Circular and strenuously disagree with the overall conclusion of the report -- that general
controls were inadequate. The OIG review identified some spot failures and procedural
weaknesses, many of which we have agreed to change. However, in terms of materiality, the
sum total of these weaknesses, in our opinion, is not significant enough to constitute an overall
finding of inadequate. Furthermore, the report does not actually deal with the overall or general
controls. To do so would require an evaluation of redundant and compensating controls. Yet,
the OIG report stated “we did not evaluate the effectiveness of manual control procedures that
may have operated as compensating controls for the automated information system general
controls.”

MMS would also point out that our recurring management control reviews have addressed such
manual controls and generally found they were working effectively or prompted corrective
actions to resolve minor control deficiencies. While these reports, as well as the supporting
workpapers, were reviewed during this and prior OIG audits of our automated system, no adverse
findings in this regard were reported. Moreover, past OIG audits performed under the Chief
Financial Officers Act of 1990 have covered these controls, and each report concluded that our
financial information was reliable.

We must dispute many of the OIG’s facts, conclusions, and interpretations. System security is a
complex network of redundant measures and policies which must strike an appropriate balance
between risk and cost. Taken together, this network provides overall security for the key
operating systems. No system is perfect, especially given the rapidly changing technological
environment and the competing needs for funds. However, we believe OIG is holding RMP to


                                                1




                                               43
                                                                                        APPENDIX 2
                                                                                         Page3ofll

                    . ..
        an unattainable standard in concluding general controls were “not adequate.” MMS has
        established and continues to improve on a system of security controls that we believe should
        instead be viewed as a positive example, or even a model within the government.

        Finally, the OIG report does not demonstrate a single negative impact of its findings. The OIG
        reported no incidents -- no loss or corruption of data and no thefi or unauthorized access. We
        believe the absence of such incidents reflects favorably on our existing automated and manual
        compensating controls. Our primary comments on the facts and conclusions are shown below by
        topic. Additional comments on the facts and conclusions are included in our comments on the
        recommendations.

I       RISK ASSESSMENTS

        MMS believes the risk assessment criteria were not appropriately applied. Circular A-130 states
         “The Appendix no longer requires the preparation offormal risk analyses ” and that risk
        assessments “can be formal or informal, detailed or simplified, high or low level, quantitative
         (computationally based) or qualitative (based on descriptions or rankings), or a combination of
        these. No single method is best for all users and all environments. ” Given the breadth of
        judgement allowed on this matter, RMP’s previous risk assessment documents and processes
        were clearly in accordance with the guidelines. We must also disagree with OIG’s findings that
        MMS did not properly assess the risks regarding year 2000 program conversion, “unsupported”
        system security software, and “geopolitical” and “external directives” risks.

        In 1996, RMP management anticipated the potential risks associated with the Year 2000
        conversion and tasked its operations and maintenance contractor to conduct a detailed analysis of
        major systems and develop a plan for modifying,and testing the programs. The resultant $1.6
        million project was begun by the contractor in March 1997 and is on track for completion in
        1998. (Enclosures 1,2, 3 and 4). In May 1997, RMP management also initiated a parallel
        internal project to assess non-mainframe, stand-alone systems. Given the fact that OMB Circular
        A-l 30 does not even require formal risk analyses; it would seem that such an explicit recognition
        of this risk and timely action toward its elimination is as an accomplishment rather than a failure.

        We also believe the OIG misunderstood the circumstances involving the “Resource Access
        Control Facility” (IUCF) mainframe security software. The system-security software was never
        “unsupported” in the sense implied by OIG; this was a contractual matter that would have
        required a paid service call rather than a supported call if a problem arose. Because RMP was
    .                                                                                                 ’ ‘.
        planning to upgrade to a different operating system, we chose not to incur the expense of a
        software upgrade at that time. RMP was never at any risk regarding this software.




                                                         2




                                                        44
                                                                                APPENDIX 2
                                                                                 Page4of 11


We glso take issue with OIG’s opinion regarding our assessment of “geopolitical” and “external
directives” risks. In our view, OIG’s opinion that RMP was at risk of employee sabotage
because of low morale associated with potential program abolishment or downsizing is
overstated. Since the program’s inception in 1982, RMP employees have become accustomed to
such proposals. While they may indeed weaken morale, we have learned external threats are
more likely to rally our employees than to foster mischief. While we consider the employee
morale issue to be important matter, RMP correctly assessed this risk as “low.”

SOFTWAREANCHANGEMANAGEm

Rh4P disagrees with OIG’s statement that “Program management did not have procedures to
ensure that client/server application software changes were authorized, approved, and tested
before being moved into production.” Such procedures have been in place since 1995 and are
published in an on-line help text format (Enclosure 5). The Client/Server Guidelines clearly
define the steps/processes for testing to be included in the Implementation Plan (part of the
Visualization Step) and the Unit, System, and User Testing required as part of the Operational
Prototype (Development Step). These Guidelines include a separate Procedural Overview of
Testing including an example test plan. While testing processes for client-server applications are
different from those for mainframe systems because of the emphasis on interactive prototyping
and Graphical User Interface design, they are no less adequate.

DEFAJJJ~TSETTINGS

The OIG found one instance where a default ID provided with off-the-shelf software was not
removed as required. However, it is factually incorrect to say that use of this default ID allows
access to all mainfiarne computer resources. The security architecture prevented any
unauthorized or inappropriate user from using this ID because users must first be able to access
the system through a valid RACF logon password and have a user ID defined to the data
dictionary. At no time were RMP resources at risk

SECURITY SOFTW-

The OIG seems to have misunderstood the reasons for and the effects of RMP’s decision not to
upgrade RACF, the commercial mainframe security software. As noted above, RMP initially
delayed the upgrade because it was considering a processor replacement that would require an
entire new suite of mainfkame software products. Upgrading RACF at that time.would have been
an inherently risky and potentially expensive decision. Moreover, the current version of RACF
had been very stable. The only risk of running “unsupported” software is contractual; that is, in
the unlikely event of a R4CF failure, IBM would have to be called in for service on demand
rather than as a fully supported maintenance call.


                                                 3




                                               45
                                                                                APPENDIX 2
                                                                                 Page5ofll



DISASTERRECOVERY            PLANS

The OIG seems to have generalized two distinct concepts and used them interchangeably.
Sensitive or proprietary information is not synonymous with mission critical-systems and
information. Although most MMS mission-critical information is sensitive, the reverse is not the
case. Most sensitive data is not mission critical.

The central repository for mission-critical information resides on the mainframe computer. This
is where MMS’s key systems reside--the heart of the MMS’ operations--requiring a
comprehensive disaster recovery plan. Users know they can always go to this central repository
for the official and current data. This database is updated continuously, centrally managed, and
routinely backed up. Because most of this data is also business-sensitive, security controls are
also in place to prevent unauthorized disclosure.

In addition, large amounts of redundant data reside in paper and electronic format in and on
desks, file cabinets, and personal computers. This includes sensitive and financial data.
However, because most of this data is redundant, it is not “mission critical.” Therefore, while it
is important to prevent unauthorized disclosure of this information, disaster recovery plans are, in
most cases, not cost effective, feasible, or necessary.

Therefore, OIG’s conclusion that disaster recovery plans are needed for all Zocal area networks
and personal computers that contain proprietary andfinancial data is erroneous. We believe
the disaster recovery plans we have in place for our mainframe and client servers provide
coverage for virtually all of our mission-critical applications. We are currently reviewing “stand
alone” PC systems to determine if any are truly mission critical. If so, they will need to be
brought onto the network and managed accordingly.

COMMENTS       ON RECOMMENDATIONS

A 1. Ensure that risk assessments are conducted in accordance with guidelines, which
recommend that risk assessments support the acceptance of risk and the selection of appropriate
controls. Specifically, the assessments should address significant risks affecting systems,
appropriately identify controls implemented to mitigate those risks, and formalize the acceptance
of the residual risk.
                                                                                                       ’.
DISAGREE - whife ‘MMS plans to enhance &d betier document our risk’assessment piocess
due to the rapidly changing computing and communication environment, we believe our previous
assessments were in accordance with guidelines.




                                                 4




                                               46
                                                                                     APPENDIX2
                                                                                      Page6ofll


    A2. ~orm~l,l~~&sign and communicate responsibility to local area network administrators to
    participate in risk assessments and ensure compliance with the Program’s security policy.

    DISAGREE - RMP policies define the LAN administrators’ role in contingency planning and
    security. (Enclosure 6).

    A3. Determine the risks associated with local area network applications and personal computer
    databases that contain proprietary and financial data and, based on the results of the risk
    assessments, establish appropriate security policies and’procedures.

    AGREE - RMP will conduct a risk analysis on user written applications as well as data residing
    on networks and personal computers to determine appropriate security and disaster recovery
    procedures. An inventory of these applications and the business functions they support is
    already being performed as part of RMP’s Year 2000 project.

    B 1. Evaluate Systems Management Division and contractor ADP positions to determine
    position sensitivity in relation to risk and ADP factors. Also, assurance should be provided that
    automated information system work is technically reviewed by persons whose position
    sensitivity level is greater than the position sensitivity levels of the employees who are
    performing the work.

    PARTIALLY AGREE - We plan to reevaluate the position sensitivity level for the senior
    personnel in charge of the contractor activity to determine if those position should be classified at
    a higher level. In accordance with Departmental criteria, most ADP staff are designated
    noncritical sensitive. We doubt it was the OIG’s intention to imply that all work must be
    reviewed by persons at a higher sensitivity level; however, this would be impossible in a multiple
    level organization because there are only two sensitivity levels from which to choose, i.e.,
    “noncritical-sensitive” and “critical-sensitive.”

    B2. Establish controls to ensure that the contractor is fulfilling its contractual obligation of
    submitting requests for background checks within the specified time frame and that contractor
    employees who are in probationary status and awaiting security clearances are not performing
    critical ADP work.

    PARTIALLY AGREE - We agree controls are needed to assure the contractor timely submits
    requests for background checks. The contractor has been directed and has begun to track and is
* ’ accoiuitable for the status of its submission of thede r&quests. We alsd’agiee that employees      l




    awaiting clearances should be in probationary status; however, it would be unacceptably costly to
    prohibit employees from performing critical ADP work. Except for positions which require
    access to information dealing with national security, all Federal employees are hired and perform



                                                     5




                                                    47
                                                                                APPENDIX 2
                                                                                 Page7of 11

            .   .a



the.full scope of their jobs while the appropriate investigation is conducted and a suitability
determination is made. We believe a similar criterion is appropriate for our contractors. Most all
software development and system operation work could be considered critical. As a practical
matter, we could not delay replacing contractor employees in such work pending the completion
of background checks. However, we are exploring alternatives with the contractor such as having
them perform a preliminary “criminal and credit check” which is quick and inexpensive .

B3. Establish controls to ensure that personnel or security files accurately reflect that
background checks and periodic follow-up background checks are performed as required.

DISAGREE - Controls are already in place to ensure that personnel or security files accurately
reflect background checks. MMS’s Office of Administration and Budget maintains
documentation and a tracking system on all MMS employee and contractor security clearances
and background checks. We also disagree with the OIG’s statement that follow-up background
checks are required. MMS is in compliance with Departmental guidance (Enclosure 7) that
followup checks are authorized only for national security positions and not for public trust
positions.

C 1. Establish controls to enforce Program policy that requires employees to sign security awareness
statements before their access to system resources is approved by the Installation Automated
Information System Security Officer.

AGREE - While our own test sample has confirmed that our users have appropriate access to
RMP systems, we concur that our filing system for access approvals needed improvement. All
statements are now consistently filed and reconciled by the ADP security officer.

Dl. Ensure that individual computer resources are classified based on the level of sensitivity
associated with each resource.

DISAGREE - We believe our current classifications are appropriate. Most RMP data is sensitive
or “proprietary” and must be protected from unauthorized disclosure. Our mainframe systems
receive heightened security because they are more mission critical, not because they are more
sensitive. As explained in previous segments, these systems must be protected more strenuously
to ensure the integrity of the official records.

A more moderate level of protection is necessary for proprietary information than for mission
critical information. The uinbrella protection mechanism for all types of proprietary informat’ion
is physical controls coupled with employee training. RMP works in a secure environment and
trains employees to protect all forms of proprietary information such as paper copies, information
on their PC’s, and floppy disks, in addition to information which resides on networks and




                                                48
                                                                                        APPENDIX 2
                                                                                         Page8ofll


        servkrs. W$il; it would be possible to install network security measures equivalent to the
        mainframe measures, we believe the significant additional cost would not be justified. We
        believe the protection level over all proprietary information is appropriate.

        The OIG is technically correct in its statement that MMS had not officially designated any of its
        systems as “major”. However, RMP has @eated its mission-critical mainframe applications as
        major (as allowed by OMB Circular A-130) by providing extra security controls and disaster
        recovery capabilities. Based on our interpretation of A- 130, the fact that these systems were not
        officially designated as major systems in our annual security plan is incidental and not
        substantive.

        D2. Evaluate controls over resources to ensure that the access controls have been implemented
        commensurate with the level of risk and sensitivity associated with each resource.

        DISAGREE - We believe our existing access controls over resources already meet the intent of
        this recommendation. All MMS employees are granted access to view royalty, production, and
        reference data. Since most of this data is proprietary, employees are trained in its proper use and
        must sign statements acknowledging their responsibility to protect it. State and Tribal employees
        have access to such data within their jurisdictions only. The ability to add or change data is
        limited to those employees who require that access to perform their jobs.

        El. Implement controls to enforce Program policy that default user ID’s and passwords are to be
        removed from the automated information system when commercial off-the-shelf software is
        implemented.

        AGREE - The contractor has implemented a verification procedure to ensure this situation does
        not recur.

        F 1. Evaluate the current Program policy which only recommends that passwords contain a mix of
        letters and numbers for all automated information system components. Implement, if the Program
        determines that a mix of letters and numbers should be required, the security software option within
        IUCF that would enforce this requirement. If the Program determines that a mix of letters and
        numbers is not required, the risk should be addressed in the risk assessment.

I       AGREE - RMP will assess this issue and document the decision.

    .
        F2. Develop and i’mplement centralized security administration for the &al area netborks used          ”
        by the Program’s divisions that contain proprietary and financial data.




                                                         7




                                                        49
                                                                                       APPENDIX 2
                                                                                        Page9of 11


       AGl%EE - J+!e are in process of implementing centralized security administration for efficiency
       purposes. Iiowever, we cannot support OIG’s basis for this recommendation, i.e., that “. . . no
       Program procedures were in place to ensure that controls were adequate to safeguard these local
       area networks and personal computers” as evidenced by two allegedly inappropriate so&are
       settings. As discussed below, we disagree the settings are inappropriate. RMP has had security
       and recovery procedures in place for its LAN’s since 1993, and the fileservers are secure.

       F3. Change the “SET UNENCRYPTED PASSWORD” to “OFF” and include the “SECURE
       CONSOLE” command in the AUTOEXEC.NCF file on all file servers to prevent users from gaining
       unauthorized access to sensitive files.

       DISAGREE - RMP was aware of the software settings issues suggested by the OIG and had
       consciously decided to leave the settings as they are. In both cases, the judgements were based
       on operational issues, taking risk into consideration. The limited security exposure was
       mitigated by the physical controls. The servers in question are in a locked LAN room within a
       controlled access building. Both of these decisions fall under the security judgement mandated
       by the A-l 30 and the National Institute of Standards and Technology (NIST) handbook which
       states that “The costs and benefits of security should be carefully examined in both monetary and
       non-monetary terms to ensure that the cost of controls does not exceed expected benefits”. It was
       RMP’s judgement that the real costs of setting these parameters in the way suggested by OIG
       clearly exceeded their limited security benefits.

       Gl . Implement controls to ensure that access managers approve all access to their applications in
       accordance with Program policy.

       DISAGREE - We believe effective controls have been in place to assure that application
       managers approve all access to their applications (see Enclosure 7). We acknowledge that qur           .
       filing system for such approvals needed improvement and are in the process of resolving this
       problem.

       G2. Document procedures which require that users’ access levels be reviewed periodically or that
       employees be re-certified to ensure that the levels of access granted are appropriate for the duties
       assigned to the users.

      AGREE - We concur with the need to document these procedures. However, we disagree with
      the OIG’s implication (in its statement of effect) of any significant risk-of security breaches.            .
    ’ Ac’&.ss to hission-critical systems has beeh carefUlly managed and controlled through
      documented security procedures and controls, including mainframe access matrices and annual
      reviews by the Security Manager. Our own tests confirmed that no unauthorized access exists or
      has existed.



I                                                       8




                                                       50
                                                                                    APPENDIX 2
                                                                                    Page 10of 11

                .   .a.



    H 11.Evaluate the need to deviate from the Departmental standard for the number of unsuccessful
    log-in attempts: If the Program determines that this number should remain at five, Program
    management should request, from the Department, a waiver from the standard of three attempts.

    AGREE - A DO1 waiver for RMP to extend the password attempts from three to five for the
    RMP was granted on November 14,1997. (Enclosure 9)

    Il. Document procedures for authorizing, approving, and testing client/server application software
    before the software is moved into production.

    DISAGREE - These documented procedures are already in place. (Enclosure 5)

    Jl . Implement controls to ensure that application programmers do not have access to the production
    client/server application data or the capability to update/change these data.

    DISAGREE - While application programmers do not routinely require update access to any RMP
    production data, there are instances when temporary access is needed by specific programmers
    under controlled circumstances. To mitigate any future risks associated with this access,
    procedures have been reinforced which detail actions to be taken when requesting temporary
    access to mainframe and client/server production data. We also refute OIG’s statement that
    application programmers serve as “backup” to end-users. This does not occur.

    52. Improve detection controls by ensuring that management or the Installation Security Officer
    reviews server security logs periodically.

    AGREE - The contractor is being directed to address the review of server security logs within
    their overall internal control procedures. (We do not believe MMS management or the
    Installation Security Officer should carry out this procedure.)

    Kl. Ensure that the upgraded version of RACF is implemented immediately if the Program is
    granted waiver from consolidating its mainframe operations with another mainframe operation.

    DISAGREE - As discussed under Risk Assessments (Page 2), we believe OIG misunderstoud the
    effects of delaying this software upgrade. Although this is a moot point now that MMS has replaced
    its processor, the decision not to upgrade the RACF software was well founded.
.
    L 1. Evaluate acquiring system-verification hd auditing s&i%are.

    DISAGREE - RMP routinely uses a number of system-assurance mechanisms such as control
    reports, system-assurance programs and user-reconciliation reports. Nonetheless, RMP remains



                                                    9




                                                   51
                                                                                  APPENDIX 2
                                                                                  Page 11 of 11


alei to any, technologic developments that would improve system integrity and operations. As
these packages-become available, they will be examined for applicability to the RMP computing
environment.

L2. Implement the system options to record activities in the SYSLOG ‘during the system
initialization process and develop and implement procedures to ensure that periodic reviews of the
SYSLOG for unauthorized or inappropriate activities are performed and that unauthorized or
inappropriate activities are reported to Program management.

AGREE - System initialization activities as well as operator commands are already recorded in
the SYSLOG. Because we are uncertain of the payoff and cost effectiveness of the periodic
reviews, we will conduct a pilot test. The SYSLOG will be reviewed following system
initialization for inappropriate and unauthorized activities that may have occurred during the test.
Based on the results, we will assess the feasibility of fully implementing this routine.

L3. Evaluate the available System Management Facility (SMF) record types and implement
procedures to ensure that critical SMF logs are reviewed periodically and that Program management
addresses the problems identified.

AGREE - We have evaluated record types and concluded that certain log record types may be
worthwhile for periodic review. We will pilot test a monthly review of these record types.
Depending on the volume of records and the payoff, RMP will continue, expand, or reconsider
this detection method. Program management will be notified when problems are identified.

Ml. Update the disaster recovery plans to include all mission-critical systems.

AGREE - We plan to update the disaster recovery plans to include all mission-critical systems.
However, we do not agree with the OIG’s presumption that all systems containing proprietary or
financial data are “mission critical.” Many PC-based systems contain copies of such data for
analysis, but these systems are not considered mission critical. MMS’ ongoing Year 2000
project is identifying and classifying any stand-alone systems that managers.judge to be “mission
critical.” If so, these systems w-ill be reclassified as such and will be required to reside on LAN’s
or servers that can be centrally backed up for recovery purposes.




                                                 10




                                                 52
                                                                          APPENDIX 3
                                                                            Page 1 of 3


          STATUS OF AUDIT REPORT RECOiWMENDATIONS

Finding/Recommendation
        Reference                   Status                    Action Required

            A.1            Unresolved.              Reconsider the recommendation
                                                    to clarify that the enhanced risk
                                                    assessment process will include
                                                    the identification of significant
                                                    risks affecting systems, will
                                                    appropriately identify controls
                                                    implemented to mitigate those
                                                    risks, and will formalize the
                                                    acceptance of residual risk. Also,
                                                    an action plan that includes target
                                                    dates and titles of officials
                                                    responsible for implementation
                                                    should be provided.

            A.2            Unresolved.              Reconsider the response to ensure
                                                    that local area network
                                                    administrators participate in the
                                                    risk assessment process, and
                                                    provide an action plan that
                                                    includes target dates and titles of
                                                    officials responsible for
                                                    implementation.

A.3, F.l, F.2, L.2, L-3,   Management concurs;      Provide an action plan that
and M.l                    additional information   includes titles of officials
                           needed.                  responsible for implementation.

B.l, B.2, E.l, and 5.2     Management concurs;      Provide an action plan that
                           additional information   includes target dates and titles of
                           needed.                  officials responsible for
                                                    implementation.




                                             53
                                                                             APPENDIX 3
                                                                               Page 2 of 3


                                              .

Finding/Recommendation
       - Reference                     status                   Action Required

B.3,D.l,D.2,         and L.l   Unresolved.             Reconsider the recommendations,
                                                       and provide action plans that
                                                       include target dates and titles of
                                                       officials responsible for
                                                       implementation.

               c.1             Unresdlved.             Provide information relating to
                                                       how the reconciliation of the
                                                       statements was performed and the
                                                       dates the actions were completed.

               G.l             Unresolved.             Reconsider the recommendation,
                                                       and provide information regarding
                                                       controls which ensure that all
                                                       access managers approve all
                                                       access to their applications. Also,
                                                       an action plan that includes target
                                                       dates and titles of offkials
                                                       responsible for implementation
                                                       should be provided.

               G.2             Unresolved.             Reconsider the recommendation,
                                                       and provide information regarding
                                                       documentation of procedures
                                                       requiring users’ access level
                                                       reviews or recertification of users’
                                                       access be performed periodically.
                                                       Alsp, an action plan @at includes
                                                       target dates and titles of officials
                                                       responsible for implementation
                                                       should be provided.

               H.l             Implemented.            No further action is required.




                                                  54
                                                                             APPENDIX 3
                                                                               Page 3 of 3




         Finding/Recommendation
                 Reference                 status                Action Required

                    I.1           Unresolved.            Respond to the revised
                                                         recommendation, and provide an
                                                         action plan that includes target
                                                         dates and titles of officials
                                                         responsible for implementation.

                    J.l           Unresolved.            Reconsider the recommendation,
                                                         and provide the procedures that
                                                         mitigate risks when application
                                                         programmers are allowed update
                                                         access to production data.


                   K.1            Unresolved.            Reconsider the recommendation,
                                                         and provide information on
                                                         whether the upgraded version of
                                                         the security software has been
                                                         implemented on the new
                                                         processor.




:-   .




                                                    55
                 ILLEGAL OR WASTEFUL ACTMTIES
                     SHOULD BE REPORTED TO
               THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents     to:                             cauillg:


                     Within the Continentzil’united      States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-5081 or
Mail Stop 5341                                         ‘(202) 208-5300
Washington, D.C. 20240


                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                    Outside the Continental United States


                                    Caribbean Repion

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Redon

U.S. Department of the Interior                        (700) 550-7428 or
Office of Inspector General                            COMM g-011-671-472-7279
North Pacific Regioxi
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
        .:   Toll Free Numbers:
        :     l-800-424-5081
        :     TDD l-800-354-0996
       :
       :
       :     FIS/Co&ercial    Numbers:
       a       (202) 208-5300
       :      TDD (202) 208-2420
       .
       :

.
      :
      :
       :
              HOTLINE
      :      1849 C Street, N.W.
             Mail Stop 5341
        i    Washington, D.C. 20240
       a:
       :
      :.
      :
     :.
      :
    :*
        *
